<html>
<title> - THE 2018 WILDLAND FIRE OUTLOOK AND THE WILDLAND FIRE MANAGEMENT PROGRAMS</title>
<body><pre>[Senate Hearing 115-346]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-346

    THE 2018 WILDLAND FIRE OUTLOOK AND THE WILDLAND FIRE MANAGEMENT 
                                PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2018

                               __________


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
               
               
                            __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-614                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>                
               
               
            
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
                Annie Hoefler, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Christiansen, Victoria, Interim Chief, U.S. Forest Service, U.S. 
  Department of Agriculture......................................    19
Rupert, Jeffery, Director, Office of Wildland Fire, U.S. 
  Department of the Interior.....................................    24

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Map produced by Predictive Services, National Interagency 
      Fire Center, dated June 1, 2018 entitled ``Significant 
      Wildland Fire Potential Outlook August 2018''..............     4
    Article by Jonathan W. Long, Leland W. Tarnay, and Malcolm P. 
      North in the Journal of Forestry in January 2018 entitled 
      ``Aligning Smoke Management with Ecological and Public 
      Health Goals''.............................................     7
    Chart entitled ``Large Air Tanker Fleet Size on USFS 
      Exclusive Use Contracts''..................................    36
Center for Biological Diversity, et al.:
    Letter for the Record........................................    69
Christiansen, Victoria:
    Opening Statement............................................    19
    Written Testimony............................................    21
    Responses to Questions for the Record........................    52
CoreLogic:
    Letter for the Record........................................    71
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Association of State Foresters:
    Letter for the Record........................................    72
Rupert, Jeffery:
    Opening Statement............................................    24
    Written Testimony............................................    26
    Responses to Questions for the Record........................    64

 
                     THE 2018 WILDLAND FIRE OUTLOOK
                         AND THE WILDLAND FIRE
                          MANAGEMENT PROGRAMS

                              ----------                              


                         TUESDAY, JUNE 5, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    It is nice to be able to welcome you back to the Committee, 
Ms. Christiansen. Mr. Rupert, welcome to you.
    We are here this morning to discuss the outlook for the 
2018 wildfire season. Just based on what we already know to 
date, it does not look good. Last Friday, the National 
Interagency Fire Center, which is a joint operation between the 
Department of the Interior and the U.S. Forest Service, 
released its monthly wildland fire potential outlook for June 
through September. Warmer and drier than average conditions are 
anticipated, and the Southwest, in particular, is at very high 
risk for wildfires due to elevated drought conditions and 
strong winds. I feel like a weather reporter here.
    The Tinder Fire, sparked on April 27th in central Arizona, 
marked the first large-scale wildfire of the season in the 
West. There are now several significant, active fires, 
including massive blazes in Colorado and New Mexico that are 
already forcing evacuations. Already this year, almost 24,000 
wildfires have burned about 1.7 million acres across the 
country and this is just June the 5th.
    The number of wildfires and acres that ultimately burn in 
2018 depends not only on wildfire potential and forest 
conditions but on the timing of lightning strikes and human-
caused ignitions.
    Nationwide, people are responsible for starting 84 percent 
of the wildfires. And by starting so many fires, many through 
human carelessness, people are essentially lengthening the fire 
season into the early spring and late fall, times of the year 
when lightning just does not have a major role. The Eagle Creek 
Fire that raged through the Columbia River Gorge in Oregon in 
2017 started by a teenager that was messing around with 
firecrackers, just one of many examples.
    With the 2018 fire season upon us, I want to start with a 
plea to people everywhere, just please be smart about fire. We 
can make a measurable difference in what this wildfire season 
ends up looking like, and it starts with being careful.
    It is also time to execute a multipronged federal-state-
local strategy to meet the increasing challenges presented by 
wildland fire in a cost-efficient manner. First is innovation. 
Our committee discusses innovation at length on the energy side 
of the policy shop, but we also have significant opportunities 
with respect to land and wildfire management. Last fall, we 
held an entire hearing on wildfire technology.
    I am particularly interested in the use of unmanned 
aircraft systems, or drones, which are playing a greater role 
in wildfire management response from detecting, mapping and 
even helping to contain wildfires. It is far cheaper to 
operate, maintain, and train personnel on drones, and it also 
helps reduce risks for pilots, crews, and firefighters.
    The Department of the Interior and the State of Alaska have 
been early adopters in the use of drones, and not just for 
wildfire. Interior is using its drones across its management 
functions, including to monitor the ongoing volcanic eruption 
in Hawaii.
    We can and should do more to embrace technology in land 
management, including in wildfire management. I know Senator 
Cantwell is very interested in this as well, so hopefully this 
will be an area where we will be able to make bipartisan 
progress.
    After that, we need to look for opportunities to increase 
efficiencies in wildland fire operations at the federal level. 
The Forest Service and the Department of the Interior have long 
coordinated aspects of their suppression programs through the 
National Interagency Fire Center but collaboration can still 
improve with respect to procurement, budgeting, information 
technology, and human capital.
    One program to focus on, of course, is aviation services. I 
still do not fully understand why the Forest Service and 
Interior have their own separate programs.
    I have also said, over and over, that wildfire is not just 
a budget problem, it is a management problem--meaning that we 
must actively manage our forests. In Alaska, we have seen the 
benefits of upfront investments in hazardous fuel reduction and 
fire breaks before fires start.
    Back in 2014, a large, strategically placed fuel break 
between the Kenai National Refuge and Soldotna saved homes and 
lives during the massive Funny River Fire. Then in 2015, 
hazardous fuel reduction treatments conducted a few years 
earlier around Sterling reduced the wildfire risk to that 
community during the Card Street Fire.
    In the FY'18 Omnibus, Congress provided significant funding 
to address wildfires. We also provided some new authorities, 
not necessarily at the level that I believe are necessary, but 
what we could characterize as a start. The agencies wanted 
those authorities, so we certainly expect them to put them to 
good use. So, no excuses there.
    I want to end by saying that to effectively fight fires and 
manage the lands, you must rid your agencies of sexual 
harassment, bullying, and retaliation. Workplace misconduct 
cannot be tolerated, especially on the fire lines in the field. 
Focus on the mission and be professional about it or be ready 
to face the consequences.
    With that, again I would like to welcome the Interim Chief 
of the Forest Service, Vicki Christiansen, and the Director of 
the Office of Wildland Fire at the Department of the Interior, 
Jeff Rupert, to the Committee.
    I thank you both for being with us today. I look forward to 
our discussion this morning as we work to reduce wildfires 
across the country.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
that very strong statement. I wholeheartedly agree with you on 
the issue of sexual harassment and what the agency needs to do 
to better manage and train and skill people in response to 
these issues. I also appreciate your very strong statement 
about drones. As we approach this fire season, making sure 
those on the fire line have the best possible information is 
going to be critical, on weather conditions, on information 
about fire movement, on all of that.
    I recently attended a breakfast where the Secretary of 
Agriculture was entering into an MOU with the Secretary of the 
Interior to work together on many things, including the 
advancement of the use of drones for firefighting.
    The Department of the Interior has done unbelievable work 
on our federal drone fleet. I don't want the Department of 
Agriculture to waste one minute recreating something when it 
could just share in the same implementation for what the 
Department of the Interior has done. So I hope that the 
Department of Agriculture will work on that.
    I wanted to get started talking about the release over the 
weekend from the National Interagency Fire Center (NIFC). For 
years now, the Committee has heard over and over that our 
wildfires are getting worse, and climate scientists have been 
telling us the fire season is getting longer and hotter. Now 
this new NIFC forecast will have the Pacific Northwest in July/
August on the side of what we have seen in the past few years 
in terms of a fire season.
    [The information referred to follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Cantwell. Most of the West received less than 50 
percent of its average precipitation for May which will likely 
result in fuels in the mountains becoming critically dry by 
late July. My colleague, Senator Wyden, and I were just 
discussing this as it relates to what that means for us anytime 
there is less precipitation: just a drier environment in which 
we all have to be very, very mindful of.
    Nearly all of the country experienced temperatures that 
were two to six degrees above average last month. Central 
Washington temperatures were ten degrees above average. Because 
these conditions are supposed to last through September, places 
like Southeast Washington will likely experience more large 
fires than they have in previous years, starting in July.
    I know that we have a couple of fires already started in 
our state. Hopefully people will be working very quickly to put 
those out, but it's just a very early reminder of how 
challenging this season could be.
    Areas in Washington, in Oregon, and in Idaho--I know my 
colleague from Idaho is trying to be here . . . East of the 
Cascade Crest, will likely experience more large fires than we 
have seen in the last few years, starting in August.
    Given what we are looking at this summer, I want to make 
sure that we are ensuring firefighters have every tool 
available to them to help fight these fires. They need to be as 
safe as possible and as efficient as possible.
    Everyone here has heard me talk about the Carlton Complex 
fire we had in Washington a few years ago where 149,000 acres 
burned up, literally, in a single day. The following year, the 
fires in Washington were even worse, and we witnessed first-
hand the disaster on what the aftermath means for people living 
in these communities. Our heroic men and women firefighters did 
everything they could to be ready, and we need to do everything 
we can to be ready for this upcoming fire season.
    Fires are becoming more lethal. In the speech that Chief 
Christiansen gave during last week's International Association 
of Wildland Fire Conference, she mentioned, which really struck 
me, that since 1910, we have had more than 1,000 deaths from 
wildland fires. But the more sobering fact is that more than a 
quarter of those, 255, have occurred in the last 15 years. We 
can see that they are literally becoming more lethal.
    When we get to questions, I am definitely going to ask 
about our efforts on firefighter and safety modernization. We 
want to make sure that every tool is there for our wildland 
firefighters, as I said, with real-time information. We also 
want to make sure that our fire shelters are modernized--
developed and implemented in a way that the safety of wildland 
firefighters are improved.
    We had a very unfortunate death in the Thirtymile Fire in 
which the firefighter's shelter wasn't really successfully 
deployed, and we bore the tragic loss of life in the Pacific 
Northwest.
    As you now deploy new shelters and use temporary wildland 
firefighters with fewer hours of training compared to our 
permanent firefighting force, we want to make sure that 
everybody is trained and also that there is not an expectation 
of being someplace that they shouldn't be. So we want to work 
with you on that.
    We also want to have more hasty response to wildfires. 
Firefighters need to be able to use those technologies that 
give them the most efficient resource. We also want to be very 
strategic about protecting these communities that are in the 
wildland-urban interface.
    In March, Congress took an important step by addressing 
part of the wildfire problem, and members of this Committee 
worked very hard on a Title of the Omnibus bill dedicated to 
wildfire, and many of the other people here in this room worked 
very hard on that. This law helps the Forest Service have 
adequate resources to respond to wildfires and do their 
necessary work. We provided significant funding for 
firefighting for the next 10 years to get out of the fire-
borrowing paradox.
    So I hope that there is also enough funding for the non-
fire programs that can benefit our communities as well, and we 
sustain the increase in funding that will help us do fire 
prevention and fuels treatment in advance of the fire season. 
That said, our law explicitly prevents the loss of funding from 
the Forest Service Non-Fire Accounts.
    So what was included in that package that we think will 
make things easier? Obviously, our state agencies like 
Washington DNR are able to partner better with the Forest 
Service. We hope the Forest Service takes advantage of that. I 
think that during the fires two years ago was the first time in 
decades that the public was called to the line, that's how bad 
the fire season was. We hope the Good Neighbor projects are 
implemented. We hope that the vegetation management around 
power lines is implemented. We hope the 20-year contracts to do 
thinning and fuel reduction on national forests and promote the 
development of cross-laminated timber are implemented; and we 
hope the Forest Service will do all the things it can to reduce 
fuels in advance of wildfires.
    I want to highlight this interesting article that was just 
published in this month's Journal of Forestry. It basically 
shows that per acres burned on a wildfire, a fire burning in 
August puts out more than five times as much smoke as a 
controlled burn in May and June.
    [The information referred to follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Now I know this probably makes sense to 
people, but at the same time this is one of the dilemmas we 
have been fighting. I guarantee if you asked people in Puget 
Sound, would you tolerate a little bit of smoke in those months 
(May, June) to reduce the constant summer-wide haze that was 
present because of August wildfires . . . I guarantee you, they 
would say ``yes.'' ``Let's do the prescribed burning in the 
months that are wet, to help us control these burns in the most 
effective way.''
    Obviously we have more work to do on that, but I think that 
article showed us this is among the wisest spending that we 
could do, and we just need to push through on this.
    I will also be asking Chief Christiansen about the shift to 
call-when-needed contracts for 35 percent of the air tankers 
and water scoopers, including Aeroflight in Spokane. I want to 
make sure that you have every tool available to you, and I want 
to make sure we are making the best, most cost-effective 
decisions and you are not just going with something because it 
can be funded from the newly authorized larger pot of money. I 
would feel better sleeping at night if you had every tool 
available.
    We know that water alone does not put out the fire, nor 
does fire retardant, but it does buy time until firefighters 
can get there. With this many fire starts in this dry of a 
season, having that kind of air ability to help mitigate is so, 
so important to these communities. With communities that are so 
stretched when the entire upper part of Northwest Washington 
and Northeast Washington is on fire, basically, communities 
were defending themselves.
    I understand that, well, we'll get the air tankers. I just 
want to say that the last year fire managers requested, but did 
not receive, an air tanker 371 times because none were 
available. I get that your goal is to have the most resources. 
I want you to have the most resources too. But I don't want you 
to have to give up one for the other.
    So let's work together on figuring out how we get you both 
in what is going to continue to be a challenging fire 
environment.
    Madam Chair, we just can't work fast enough. The changing 
climate and environment is making fire a more challenging 
environment for our Forest Service, for our wildland 
firefighters, for our communities. We put a down payment on it, 
but we need to do so much more.
    I thank everybody, and thank you for having this important 
hearing today.
    The Chairman. Thank you, Senator Cantwell.
    We will now turn to our witnesses this morning.
    Ms. Christiansen, again, welcome, as the Interim Chief of 
the U.S. Forest Service at the Department of Agriculture. We 
appreciate you being here and your leadership.
    If you would please proceed.
    We would ask you both to try to keep your comments to about 
five minutes so we have opportunities for questions.
    We do have two votes that are scheduled to begin at 11:00 
a.m., but we will power through them so that we can allow 
members to ask their very timely questions to a very timely 
issue.
    Welcome, Ms. Christiansen.

STATEMENT OF VICTORIA CHRISTIANSEN, INTERIM CHIEF, U.S. FOREST 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Christiansen. Madam Chair, members of the Committee, 
thank you for inviting me back to testify.
    I'd like to touch on three topics today: The Wildfire 
Outlook and our preparations to respond; our progress to 
increase work to improve forest conditions and reduce fire 
risk; and then update you on our actions to create a safe, 
respectful workplace.
    Above-average wildfire activity appears to be our new 
normal. Forecasters predict 2018 will rival last year's 
historic season when the Federal Government spent $2.9 billion 
fighting fires.
    They predict above-average significant fire potential in 11 
Western states at various times between now and the end of 
September as Senator Cantwell displayed.
    Firefighting is not solitary work. No one organization can 
do it alone. We rely on the cooperation and shared resources 
with states, tribes, federal agencies, and local partners. With 
our collective resources, we maintain what we need to 
effectively respond.
    The Forest Service itself has 10,000 firefighters, 900 
engines and hundreds of available aircraft. Our firefighting 
efforts suppress 98 percent of all fires at ten acres or less. 
We are also taking steps to better manage costs for fire 
response. We know there is no blank check.
    We will make decisions to ensure we spend dollars in the 
right place that will make a difference. We are evaluating and 
reducing cost centers to ensure we are most effective and 
efficient with taxpayer dollars.
    In addition to wildfire response, our work is equally about 
improving forest conditions and providing for uses and 
experiences and services.
    With the help of Congress, we are equipped with new tools 
and the fire funding fix to help us get more done. It's our 
time to deliver, and we are making steady progress.
    By June 8th, all of our regions will submit two-year plans 
that will demonstrate how they are going to employ the new 
authorities. They'll include the modified Good Neighbor 
agreements, use of new categorical exclusions for wildfire 
resilience, and optimal locations for the 20-year stewardship 
contracts.
    We also look forward to submitting our blueprint to reduce 
hazardous fuels in high risk areas.
    We are already seeing increased results.
    We will sell 3.4 billion board feet of timber this year 
while improving resiliency and health on more than three 
million acres.
    We have increased the number of acres we treated by 36 
percent. Timber harvest rose 13 percent from last year, and we 
are delivering it earlier in the year. At this point, we have 
harvested nearly 30 percent more timber than we did last year. 
Our 2018 timber target is the highest it's been in two decades.
    We have also strengthened cooperation with states and other 
partners to do more work. Our increased work with states has 
resulted in 150 Good Neighbor agreements in 34 states. One 
agreement in Utah resulted in 36 projects that will treat over 
50,000 acres.
    Meanwhile, we are fundamentally reforming our internal 
processes and it's paying off. We are streamlining our planning 
over the last eight months, and it's decreased the time to 
authorize projects. This has reduced costs in just these eight 
months by $30 million. We are updating our technology to 
expedite timber sales and our shovel-ready work has also 
increased to build on our momentum for 2019.
    There is much more work to do, but we are off to a 
productive start.
    Finally, our mission success does depend highly on a 
skilled, motivated workforce. We will continue to act with 
urgency to end harassment and retaliation in the Forest 
Service.
    Next week, over 30,000 employees will take part in a full-
day session called, Stand Up for Each Other. Employees will 
receive a new code of conduct and mandatory anti-harassment 
training with our broad, new policy.
    You have my personal commitment to do whatever it takes to 
bring about a permanent culture change in the Forest Service. 
This level of commitment goes for all the work we do. We will 
ensure your investments make a difference to Americans who 
deserve healthy, productive forests and a government that works 
for them.
    Thank you, Madam Chair, members of the Committee, I'm happy 
to answer your questions.
    [The prepared statement of Ms. Christiansen follows:] 
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Christiansen.
    Mr. Rupert, welcome to the Committee.

STATEMENT OF JEFFERY RUPERT, DIRECTOR, OFFICE OF WILDLAND FIRE, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Rupert. Good morning, Chairman Murkowski, Ranking 
Member Cantwell, members of the Committee. Thank you for the 
opportunity to appear before you this morning to discuss the 
2018 outlook and the Department of the Interior's fire 
management program.
    As we've already heard this morning, 2018 is shaping up to 
be another challenging year. The cumulative impacts of drought, 
invasive species, and the steady accumulation of vegetation are 
creating landscapes that are more susceptible to large, 
devastating, and costly wildfires.
    So far this year we've seen large fires in the South, the 
Midwest, and especially in the Southwest. And by all 
indications, we can expect the fire season in the West to be 
comparable to recent years as the outbreak of major wildfires 
over the weekend in New Mexico and Colorado demonstrate.
    Together with our partners, we will continue to mobilize 
Department personnel, to deploy engines, single-engine air 
tankers, and other firefighting assets in support of a fully 
interoperable firefighting effort.
    As Secretary Zinke and Secretary Perdue recently reaffirmed 
to all wildland fire leadership in both Departments, the 
protection of firefighters and public safety is the top 
priority for every wildland fire activity and management 
decision.
    Effective wildfire response is also built on trust, on 
teamwork, and on collaboration among firefighters and their 
partners. A workplace that's free from harassment and where all 
members of the firefighting community have a strong trust 
relationship with their colleagues is critical to achieving a 
safe and effective response.
    The Department of the Interior's recently implemented 
comprehensive anti-harassment policy takes meaningful steps to 
address harassment by stepping up training and establishing a 
clearly defined complaint and resolution process so that all 
employees, including those on the fire line, can focus on the 
mission.
    To reduce the threat of wildfires, it's critical that we 
take a more active approach to the management of vegetation on 
our nation's forests and rangelands. In a directive to all 
Department of the Interior field personnel, Secretary Zinke 
emphasized the importance of active management as a way to 
reduce hazards and establish fire resilient landscapes and 
communities.
    A cornerstone of this policy is the integration of 
vegetation management in all resource management planning as a 
way to reduce fuels and improve forest and rangeland health, 
protect people's lives and their communities, and prevent 
catastrophic wildfires.
    Vegetation management, either done collaboratively with our 
partners or done directly by bureaus on Department managed 
lands, is one of the most effective strategies for mitigating 
wildfire risk. Coupled with more aggressive vegetation 
management, technology is helping us to prevent and manage 
catastrophic wildfires.
    The use of unmanned aircraft systems, or UAS, is a perfect 
example of technology and leveraging it to fight wildfires in 
safer and more efficient ways. Last year, the Department 
conducted over 700 UAS missions on more than 70 wildfires, and 
we're on track to surpass that this year. The versatility of 
UAS is making a big difference in the way that we're fighting 
wildfires. UASs provide real time data and information that's 
used to improve surveillance and reconnaissance by assisting 
firefighters with detecting hot spots, improving mapping and 
increasing the effectiveness of monitoring.
    We're also exploring a number of new technologies including 
applications and alert systems that improve firefighter safety 
and collaboration with the Department of Defense.
    I would also like to point out that the Department is 
widely using UASs to support natural resource management and 
for search and rescue missions.
    For example, last week the USGS, the U.S. Geological 
Survey, carried out a search and rescue mission in Hawaii at 
the Mount Kilauea volcano. Using infrared sensors, a UAS 
spotted an individual cornered by a lava flow. The remote 
pilot, using the UAS, was able to safely navigate the 
individual to a search crew that ultimately led the person out 
of harm's way.
    So we look forward to working collaboratively with our 
partners throughout the wildland fire community to continue to 
build on these and other efforts in ways that support the 
safety of firefighters and the public, enhance our firefighting 
capabilities, and strengthen relationships with our partners.
    I hope it goes without saying, but I'll say it anyway, 
thank you for the sustained support of this Committee for the 
entire wildland fire community and thanks again for the 
opportunity to discuss the Department's program.
    I'm happy to answer any questions. Thank you.
    [The prepared statement of Mr. Rupert follows:]
    [
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Rupert.
    Thank you both.
    Let me begin with the questions here. I appreciate that 
both of you have addressed the issue of workforce misconduct, 
harassment, and what you are doing to bring about the very, 
very necessary changes to rid the agencies of sexual harassment 
and all forms of workplace misconduct.
    Ms. Christiansen, you mentioned that you have a code of 
conduct that has been introduced and mandatory training. Mr. 
Rupert, you have also indicated that you have a new anti-
harassment policy and you reference that this training includes 
those that are on the fire line.
    Chief Christiansen, regarding the outreach for the training 
and this full-day session that you referenced, does this also 
include those within the firefighting ranks? Is this only for 
people within your administrative offices? Who are we covering 
here and what is the extent of these new policies that have 
been put in place?
    Ms. Christiansen. Yeah, thank you very much, Senator.
    Yes, it is for every one of our permanent and seasonal 
employees. That's why we waited until the second week of June--
the majority of our seasonal staff are onboarded now. So, this 
is, we are, you know, shutting down a business for one day, 
rolling each week in different units, one day, to focus on this 
training and the importance of breaking the silence and what it 
is really going to take to shift our culture sustainably.
    We started with listen and learn sessions across our whole 
organization. Now that did not include as many of our 
seasonals, but that really was--we needed to demonstrate as 
leaders what was really being felt in the workforce. That 
really fueled the design for our Stand Up for Each Other days 
next week.
    And we, about 18 months ago, passed a very broad, anti-
harassment policy. And we've been working on this agency 
specific training with real agency examples, with real 
employees on a--we've recorded our own training. And there will 
be discussions in every work group across our organization, 
administrative staff, field staff, fire staff, the headquarter 
staff. Each work unit will identify what they need to make 
commitments to each other to improve the work environment.
    But that, you know, we've started with an enhanced 
reporting center. We opened that up in the Fall of '17 so that 
the fear of retaliation, we're trying to minimize the fear of 
retaliation. We want to hear if anyone has any concern. We've 
seen increased reporting.
    The Chairman. What action, then, is taken if it is reported 
and this is a situation out in the field. You have an active 
fire underway. People are working.
    How do you enforce this because it is nice to be able to 
say that we have a one-day training session and then you go out 
there for the season, but it is not like you are reporting to 
somebody in an office back here? I think this has been one of 
the very significant concerns is that out in the field it is a 
different environment.
    Ms. Christiansen. Yes.
    The Chairman. And that there is more that is ``accepted.''
    Ms. Christiansen. You're absolutely right. That's about 
getting under what's in our culture.
    So there's both--being very clear about what is not 
accepted and changing those behaviors, and then there are 
structural things that will allow reporting in different ways. 
So, even if you're out in the field, if there is cell service, 
a 1-800 number, 24/7, will pick up that someone that has a 
complaint can report it to and then we have timelines. Action 
must be taken within 24 hours to look into an investigation and 
to evaluate the situation and to take corrective action.
    The Chairman. Mr. Rupert, very quickly on DOI side. Do you 
have a similar process then for reporting and required action?
    Mr. Rupert. Yeah, the policy that was recently put in place 
in DOI sets very rigid expectations for managers and 
supervisors and timelines to respond to complaints. And so, 
there's a tremendous focus on ensuring that that process, that 
really explores and understands and, you know, provides that 
inquiry and investigation it's rigid in expectations, go along 
with it, to follow through.
    I think to the point of, you know, in the field, especially 
in these areas, these incidents where we have very, sort of, 
diverse organizations that are all contributing as both of our 
departments, I think, have started to put in much more rigid 
expectations for how behaviors, inappropriate behavior, be 
treated with that we're anticipating that that will generate 
more interaction when these things occur.
    We've had dialogue at senior management level, not only 
between Interior and Ag but also with our partners across the 
entire community, the states, local organizations, tribes, in 
those interagency settings to ensure that these incidents 
occurring--where this occurs on these incidents where we have 
this real diverse, sort of, community, all working together, 
that we don't lose track of those complaints and that we are 
following those back to the home organization to, essentially, 
ensure that the people are being held responsible for their 
behavior.
    The Chairman. Well, I know that from an oversight 
perspective, we will be back to you on this to make sure, 
again, that this is more than a one-day training, that this 
really is about changing a culture that has been allowed to 
take over our agencies, that has been an extraordinarily black 
mark. We need to correct that. You know that, and we want to 
keep monitoring this.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Chief Christiansen and Mr. Rupert, we were all together at 
the Department of Agriculture to discuss this MOU between the 
Department of the Interior and the Forest Service, and I saw 
that last week the Department of the Interior awarded four 
contracts to companies who operate medium-sized, unmanned 
aerial vehicles for wildfires.
    I'm proud to say that one of those was Insitu from 
Southwest Washington and Northeast Oregon, a company that spans 
the Columbia, literally the company is on both sides, and we 
are so proud of that technology.
    But most importantly, we are proud that Interior is being 
very aggressive about using this tool on wildland fires. We 
want to make sure that there is now no barriers between the 
Forest Service and Interior working together to implement this. 
This is so critical for information about fire size, starts, 
and the safety and security of our firefighters.
    So, is there anything that is holding us up from being very 
aggressive about this deployment during this fire season? Do 
you have to do anything else to make sure that these tools are 
now used across agencies or implemented?
    Ms. Christiansen. Senator Cantwell, thank you for that 
question.
    And I'm, you know, I'm pleased to say that this is an 
example of that we're really coordinating together.
    The Forest Service is clearly looking to the early adopters 
and the innovation that DOI has really stepped out on and we 
applaud that, instead of us spending the dollars and the time 
to do the innovation and the testing that they've done.
    We are absolutely committed. We are drafting on them, if I 
might say, with our policies, our procedures, to make sure that 
we have interoperability so that we don't have policies and 
procedures that are different.
    The Office of Aviation Services at DOI has been extremely 
helpful in our policies and procedures. They have done train-
the-trainer for our staff, and we can access their call-when-
needed contracts at any time, as well as the states and others.
    So, we are not ashamed to say that we applaud our 
Department of the Interior colleagues, and we also see a very 
strong use and innovation and safety aspects of using UASs on 
fires. I look forward to when they can have additional capacity 
beyond just the surveillance.
    Senator Cantwell. Thank you.
    Anything else, Mr. Rupert?
    Mr. Rupert. Well, thank you for the recognition and thank 
you, Vicki, too.
    I would just say the easy answer to the question is yes, 
the call-when-needed UAS contract is available, not only to the 
Forest Service, but it's being administered as a national asset 
the way we administer other national assets. So, it's available 
across, really, the community on those large incidents----
    Senator Cantwell. Well, I assure you we are going to need 
them, so thank you.
    On call-when-needed, the air tanker issue.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0614.023
    
    Senator Cantwell. I am concerned that we are shifting 35 
percent of the current air tanker contracts to call-when-
needed. We had a chance to talk about this before, Chief 
Christiansen, about the fact that call-when-needed contracts 
are more expensive per day but yet, I think, to get the planes 
you are going to have to call them every day and say you are on 
call. What I am trying to understand is how we are going to 
supplant that for the panoply of resources that you could have. 
So, I am just trying to understand.
    Is this about going deep where the resource is from a 
budgeting perspective or do you truly believe that call-when-
needed, as it relates to these services, is the most cost-
effective way for taxpayers?
    Ms. Christiansen. That's a really good question and we, as 
I said earlier, will monitor closely that balance between the 
upfront expenditures we use for exclusive-use and how much we 
actually need them versus the yes, more expensive, but we pay 
for them when we use them, call-when-needed. It is an art and a 
science, and the science part is informed looking backward, and 
we have to look forward.
    To be honest with you, Senator, we would like to rebalance 
in the incoming years. We think that we need to have a little 
bit more balance between exclusive-use and call-when-needed.
    We were in transition this year, quite frankly, from 
getting the legacies off contract because that contract is 
done, and this is a transition year.
    Senator Cantwell. Well, I so appreciate you saying that 
because I want you to have every single tool you need.
    Ms. Christiansen. Yes.
    Senator Cantwell. I want you to have air tankers. I know 
that you had one acquired from the Department of Defense and am 
not sure if you are going to use it. I want you to have these 
water scoopers. I want you to have the large retardant planes. 
I want you to have every single asset.
    So I hope that you will, given what you just said, work 
with us to figure out how to make this not a transitional 
season here but a season where you have every tool at your 
disposal. That is what people in the West want us to be doing. 
They want us to be giving them every tool possible to fight 
this fire season.
    So, thank you.
    Ms. Christiansen. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman. Ms. 
Christiansen, Mr. Rupert, thanks so much for being with us 
today.
    A couple of questions.
    The National Interagency Fire Center's outlook for the 
summer of 2018 largely contained positive news for Wyoming. We 
all know how quickly on the ground conditions can change.
    Across Wyoming we have had above-average snow pack and 
spring runoff which has contributed to, what has been labeled 
as below level, below normal fire potential. But higher 
precipitation, as you know, can often mean rapid grass growth. 
It can dry and by August we have trouble.
    So talking to our Wyoming State Forester, Bill Crapser, he 
has his rule of sixes and he said it just seems about every six 
years, and 2018 is the sixth year. But Wyoming is going to see 
fire this year and questions remain about forest health, 
effective use of resources, improving coordination among agency 
partners, and how we can best do that.
    And a lot of it comes down to the millions of acres of the 
ecosystem across the West affected by pine beetle, bark 
beetles, you know, we have had, we are no stranger to die offs 
than you are not either, of these standing dead trees which 
continue to pose significant threats. You both identified the 
need to reduce hazardous fuels. Both agencies have tools to 
take preventive action, including those provided in the recent 
FY2018 Omnibus funding bill.
    So, in places like Wyoming where a lower intensity fire 
season is expected but it may happen otherwise, do your 
agencies have the flexibility that you need to take advantage 
of certain years and adapt fuels treatments as the year goes on 
in real time to increase preventive measures to, kind of, get 
ahead of the curve in terms of all this standing fuel?
    Ms. Christiansen. Senator, thank you for that really good 
question.
    And I don't mean to burst your bubble, but the white on the 
map that Senator Cantwell put up doesn't mean it's below 
normal, it means it normal conditions.
    Senator Barrasso. Yes.
    Ms. Christiansen. So that indicates we still will see fires 
on the white part.
    Senator Barrasso. Yes, my point, yes.
    Ms. Christiansen. But yes, you don't have as much red in 
Wyoming. So you're exactly right. We have to use every tool in 
the toolbox for treating these hazardous fuels, that is 
mechanical treatments, but it is also using fire when we are in 
control of fire because fire will help reduce fuel loads in 
many of these ecosystems and sometimes they need both.
    When we have more favorable conditions, we need to take 
advantage of those operating windows, both on fire severity and 
smoke management.
    And we heard very good comments by Senator Cantwell in her 
opening statement about we are working with the public on how 
we take our smoke under terms that we, none of us, care for 
versus terms that are going to improve conditions.
    We just had a two-hour call with all of our leadership 
across the country about how we deploy resources, not only for 
fires, for wildfire response, but for hazardous fuel and other 
important treatments. We're on that and states are a critical 
part of that discussion as well.
    Senator Barrasso. Thank you.
    Mr. Rupert, you feel you have the flexibility?
    Mr. Rupert. Yeah, so, for Interior a lot of the--so, the 
efficiencies, for example, in the Omnibus, largely were focused 
on forest authorities. And so, we're largely still operating in 
the framework that we have operated in in Interior in terms of 
planning, projects, and then ultimately working to put them on 
the ground.
    We're very much focused in Interior on streamlining those 
existing, that existing, framework and that existing process 
and we're making good headway there.
    So, ultimately, projects, there is an aspect of projects 
needing to have that planning to help drive them. We're still 
very much doing that.
    By the same token, conditions on the ground, in addition to 
values that are at risk and their exposure, potential exposure, 
to wildfire. Yeah, weather conditions and having the right 
conditions to be able to get in there and do proactive 
vegetation management is very much a part of the equation year-
to-year, season-to-season.
    Senator Barrasso. Great, thank you.
    Ms. Christiansen, the Black Hills National Forest formed a 
number of years ago an advisory board to provide advice and 
information to the forest supervisor from the various 
stakeholders. The board is currently experiencing a number of 
vacancies and the nominations have to be approved by the 
Secretary, so it takes some time. Without approval of pending 
nominations, the March, April, and May meetings have all had to 
be canceled because there are not enough members. The board is 
planning to meet again in June, but again, with this many 
vacancies, that meeting is going to have to be canceled. Do you 
have an update on the situation and the nominations?
    Ms. Christiansen. Senator Barrasso, we clearly hear the 
concern and we, too, are making this a priority to get the 
willing nominations in and have the vetting done and working 
very closely with the Secretary's office.
    He, I know, is also committed because being a good neighbor 
is having everyone at the table to have a voice in how their 
lands are managed. So, it's a priority for us.
    Senator Barrasso. Thank you very much.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair, and thank you, Madam 
Chair and Senator Cantwell, for your leadership.
    We, of course, have the fire-borrowing language on the 
books. I think that is going to be helpful for the long-term.
    Ms. Christiansen, we look forward to getting the plan at 
the end of June on how you are going to deal with the backlog 
on hazardous fuels reduction. That is what we talked about here 
in this Committee.
    I very much appreciated the fact that you have been in 
discussions with us about how you are going to be attacking 
that, and I look forward to that as well. I think the country 
very much wants to know what the game plan is for reducing 
those hazardous fuels.
    Sometimes it feels like all of us as individual Senators 
are running weather bureaus because our citizens are so 
concerned about this. For the country, May is the ominous month 
for the fire season. It traditionally gives you a sense of 
where things are, and like many of my colleagues, it looks like 
we are going to have some real challenges in Oregon this 
summer.
    By the way, our friend, Senator Heinrich, is exhibit A for 
this proposition. The reason he is not with us today is because 
he is in New Mexico where he is dealing with a wildfire. So 
this is not some kind of abstract theory.
    So, let me, if I might, talk to you about this air tanker 
issue. In my state, as is the case in many places, they felt 
they didn't have enough tankers last summer. So I think a lot 
of people are going to listen to this and say, well, they are 
playing a shell game back in DC. They are going to have this 
kind of tanker. They are going to have that kind of tanker. I 
know that is not your intention.
    So, let me ask it this way. You've got this plan. Let's say 
there are not enough tankers, period. Lives are on the line, 
lives that sometimes can be affected by hours, not even days. 
What do you do in that kind of situation?
    Ms. Christiansen. Well, Senator, you know, we really 
appreciate the concern of the citizens, and I would be 
delighted if we could have a little window into the 
intelligence, the predictive services, and the 24-hour 
decision-making that is done at the geographical area and at 
the national area.
    So when we are in those high preparedness levels, we call 
them preparedness levels 4 and 5, where nationally we have to 
prioritize the resources. Each geographic area, and for Senator 
Cantwell and you it's the Pacific Northwest geographical area, 
the executives and their key fire leadership are meeting hourly 
and updating the situation and that feeds into the National 
Interagency Fire Center where the national group of all of our 
representatives----
    Senator Wyden. Can I stop you right there?
    Ms. Christiansen. Sure.
    Senator Wyden. Because I think that is very constructive, 
and it is also in English because so much of what goes on in 
fire is hard to comprehend by people.
    I believe what you have just said is you use your 
predictive services and then on an ongoing basis, really 
hourly, are able to deploy the assets you have. What if you 
don't have enough assets?
    Ms. Christiansen. Yes.
    Senator Wyden. In other words, you make a judgment that you 
just don't have enough assets which has been the case over the 
years where even the best people's intentions . . .
    Ms. Christiansen. Right.
    Senator Wyden. But you don't have enough assets. What do 
you do then?
    Ms. Christiansen. Yes.
    So, it's a prioritization. That's what I was getting to. 
It's a tiered prioritization. First are the most critical 
threats to humans and communities, then generally, critical 
watersheds and the like. Then we do have additional surge 
capacity that we can bring on.
    Senator Wyden. Where does the surge capacity come from? Are 
these just tankers that are somewhere else?
    Ms. Christiansen. Yes.
    Senator Wyden. That are not part of the two categories you 
told Senator Cantwell about, that this is, kind of, a third 
category.
    Ms. Christiansen. Yes.
    Senator Wyden. Surge category that you can bring in if you 
just don't have enough.
    Ms. Christiansen. Yes.
    Senator Wyden. Where do they come from?
    Ms. Christiansen. The Department of Defense, the mobile 
aviation units, the modular units.
    Senator Wyden. How many of them are there?
    Ms. Christiansen. We have seven? Yes, seven, seven of those 
and then generally, by the time we are in the significant part 
of the fire year, we say fire year in the West, we can bring 
our partners down from Canada, our two additional surge 
capacities.
    And then we are putting out additional calls when needed 
and later in the summer we anticipate having at least five more 
on call when needed, so up to 30.
    Senator Wyden. I am over my time.
    I just want to close by saying I think you are working very 
hard at this, and you are playing offense and that is really 
the key.
    I would just like it if you could also furnish to the 
Committee, through Senator Murkowski and Senator Cantwell, a 
written answer to what I just asked about when there are not 
enough tankers. I had never really heard a whole lot about 
this, sort of, surge capacity group of tankers and I knew a 
little bit about Defense. When I was Chair of the Committee, 
Senator Murkowski and I used to talk about this. So, if you 
could get that to us in writing?
    Ms. Christiansen. Sure.
    Senator Wyden. But I want it understood, I think you are 
working very hard at this. Your relations, with keeping us 
informed, have been very constructive, and we appreciate it.
    Thank you, Madam Chair.
    Ms. Christiansen. Thank you.
    Senator Cantwell. If I could just----
    The Chairman. Senator Cantwell.
    Senator Cantwell. ----15 seconds?
    I want to make sure that NASA is the partner you want on 
those fire weather updates. Okay? We want to make sure NASA is 
giving you the satellite information you need on an hourly 
basis.
    Thank you.
    Ms. Christiansen. Absolutely, we are working with NASA.
    The Chairman. Thank you both.
    Senator Daines.
    Senator Daines. Thank you, Chair Murkowski.
    Chief Christiansen, good to see you again here before this 
Committee.
    Last fire season in Montana, nearly 1.4 million acres 
burned. When you break that down to national forest, it is 
680,000 acres. We were left with a great deal of dead and dying 
timber which causes serious public safety risks, yet we see 
significant delays associated with completing NEPA analyses of 
these burned areas and they prevent the salvage and other long-
term, post-fire restoration work from being completed in a 
timely manner.
    I have to say, Montanans scratch their heads. They say, we 
can't even get into burned areas here to salvage that timber. 
And, of course, we all know that clock is ticking when it is 
still salvageable.
    Chief Christiansen, I have heard from many Montanans who 
want the Forest Service to use your Emergency Situation 
Determination (ESD) authority to get more post-fire work done 
sooner. As you know, I encouraged you to approve these ESD 
requests for the fires in Montana last year. Could you provide 
an update on my request for these ESD approvals?
    Ms. Christiansen. Thank you, Senator Daines.
    I have to say I'm quite pleased with our staff in Montana. 
They activated quickly. We put together strike teams to work on 
the salvage, worked with the communities and with industry on 
what would be the ideal place that industry could receive this 
salvaged material. Using the Emergency Situation Determination 
is a very important tool for both health and safety and for the 
imminent threat of the product declining rapidly.
    I have signed the first one of those. I expect the Sunrise 
Project on the Lolo National Forest, I signed last week. 
Regional Forester Martin knows what I expect to see for my 
confidence to sign the next four, and I'll have those within 
the next two weeks.
    Senator Daines. That is refreshing and it is very good to 
hear, Chief.
    Given the sometimes-lengthy approval process and time with 
ESDs, what can Congress do to encourage faster and more 
extensive use of this tool by the agency?
    Ms. Christiansen. Thank you, Senator.
    You know, I think it's just understanding the process and 
the balance. Obviously, we take this tool very seriously, but 
we need to not abuse it. We want to be strategic and really 
look for the areas where health and safety or critical decline 
in the product are in place.
    So, working, you know, your voice and the communities that 
we'd like their early involvement in the scoping so we can move 
out quickly. So, you know, we do this in a transparent way with 
communities and citizens that care. Your help in getting 
communities to work with us quickly, I think, will help down 
the line, and your continued support of the tool that we can 
sustain it and uphold it as it was intended to be used.
    Senator Daines. Thank you, Chief.
    Mr. Rupert, could you discuss the economic as well as the 
environmental benefits of carrying out restoration efforts as 
quickly as possible following large fires on DOI lands?
    Mr. Rupert. Sure.
    I think, so restoration, you know, just to, sort of, 
identify that as being slightly different than how we would 
approach say, emergency stabilization which happens immediately 
after the fire. So, restoration rehabilitation as we get into 
that, I think, in a lot of ways it's location, location, 
location. There are many areas around the country where getting 
in there immediately. And this is, you know, so this is, sort 
of, it's a local stakeholder driven need that I think we have 
here. There's some places where getting in there immediately 
getting work on the ground, immediately getting trees replanted 
absolutely makes the most sense to get it back to, sort of, a 
healthy state that is economically supportive.
    There are other parts of the country where, quite frankly, 
we probably don't want to get in there immediately because the 
conditions that are going to really lead to successful 
restoration may not be in place until later in the year or a 
different season or after we have rain. I mean, a whole, just a 
variety of different circumstances.
    So, I think, it sort of depends based on location, but 
there are absolutely many examples where the faster we can do 
it, the faster we can get in there, the better.
    Senator Daines. Chief, could you address what impact 
litigation has on the region's ability to meet its timber and 
restoration targets?
    Ms. Christiansen. Yeah. Litigation clearly takes focus away 
from getting our work done. It prevents the critical 
restoration to create the fire resiliency that we all are 
trying to achieve and it, quite frankly, gives pause to our 
staffs to be pretty risk averse.
    So if we could work with folks early in the collaborative 
process, if everyone would come to the table, we are always 
willing to hear everyone and to work it out, but litigation on 
the back end really slows down the important critical work that 
we're trying to do.
    Senator Daines. It is awfully expensive too.
    Ms. Christiansen. Yup.
    Senator Daines. Wrapping up, Chief, as you know, the most 
recent forecasts from the National Interagency Fire Center 
predicts above-normal fire potential for Montana. I just saw 
your chart, and took a quick picture of it. It was sitting 
there for a moment. Oh, there it goes.
    Here we are in Montana experiencing snow packs well above 
average with flooding in many parts across our state. As you 
mentioned to us in our briefing here a few weeks ago, there are 
a lot of variables that go into that outlook, but it looks like 
we need to buckle up for what looks to be another tough fire 
season.
    Congress recently provided new authorities to the Forest 
Service but much more needs to be done to address the 
significant threats of wildfire. I look forward to working with 
you to build additional support for some of these litigation 
protections and reductions in red tape so restoration projects 
can get done sooner.
    Thank you.
    Ms. Christiansen. Thank you.
    Senator Cantwell [presiding]. Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Thank you, Ranking Member, and thank you both for being 
here.
    Let me initially just associate myself with the comments 
the Chair made with respect to sexual harassment and addressing 
that issue in both of your agencies.
    Ms. Christiansen, I could not agree with you more. It is a 
cultural change, so we have to be vigilant and constant and we 
have to have policies and procedures in place. I look forward 
to working with you, supporting you, and making sure we are 
constantly addressing this issue.
    Let me talk about Lake Tahoe. Lake Tahoe is important for 
both Nevada and California. And I know, Ms. Christiansen, this 
is an issue that we have talked about in the past. Over 74 
percent of the area around Lake Tahoe is public land managed by 
the Forest Service, and after decades of fire suppression, the 
Tahoe Basin's overstocked forests are highly vulnerable to 
insect, disease, and catastrophic wildfires. They lack the 
diversity in age, structure, and species distributions to 
support a healthy forest ecosystem. Forest management projects 
are essential to the safety of Tahoe's communities and the 
health of its forests. The threat of a catastrophic wildfire at 
Lake Tahoe is a top concern for the entire community in both 
states.
    So with the increasing outlook for above-normal, 
significant wildland fire potential in Northwestern Nevada, as 
we can see from the maps, what precautions is USFS undertaking 
to safeguard this area in particular?
    Ms. Christiansen. Thank you, Senator.
    Let me just make one quick comment on work environment. 
It's not a one-day training and we're done. This is a starting 
point of a long journey.
    Senator Cortez Masto. Thank you.
    Ms. Christiansen. In regards to Lake Tahoe, it's an emblem 
of a community at high risk with high populations and it is a 
good example of a community that is working across boundaries 
together.
    I hate to say this, but it's working way up front of any 
fire that's in sometimes several years of working across 
boundaries on both getting the resiliency of the lands in 
better shape, as you suggested, and the communities prepared to 
have fire, being fire adapted.
    The tools added to the Farm Bill tools, from 2012 to what 
was just recently passed in the Omnibus, are a great step 
forward for us to be able to move more swiftly to get more done 
and to stabilize--when the fire funding fix goes into effect--
our operating environments so we can do the investments on the 
ground.
    Additionally, the reforms we're doing ourselves, 
internally, will help us to get more work done. I'm proud of 
the 36 percent increase in the work across these lands and that 
means with Interior, and with our state and local partners.
    So, the principles of what we call the National Wildland 
Fire Cohesive Strategy, where we need to create the resilient 
landscapes, fire adapted communities, and have an effective 
risk space response to fire.
    I know I have an invitation, and I want to get out, to Lake 
Tahoe. I was there a couple years ago, and it is a great 
example. You have some great leadership of working across 
boundaries.
    Senator Cortez Masto. Thank you.
    We appreciate you being participants and the focus on that 
area because it is an area where both of the Senators from 
California and Nevada have come together----
    Ms. Christiansen. Yes.
    Senator Cortez Masto. ----with the local community to 
really address this issue. So we appreciate you being there.
    Let me jump back to the top of the conversation that 
Senator Cantwell talked about which is haze. I do not think 
people realize that when there are fires going on in the 
Northwest, and in a particular state, it is not just addressing 
and impacting that state. If there are fires in California, we 
see the smoke and the haze in Southern Nevada or Reno. So it 
has an impact on the region.
    For that reason, I am curious . . . what is it that you 
look to to address the health effects when it comes to that 
haze and the issues affiliated with any type of a wildfire? Let 
me bring this up because I know you have an Office of 
Environmental Health that studies the events and their impacts 
on people's health, in particular, but my understanding is that 
is being defunded. Is that correct?
    Ms. Christiansen. From--where?
    Senator Cortez Masto. Office of Environmental Health?
    Ms. Christiansen. I'm----
    Senator Cortez Masto. Is that not true?
    Ms. Christiansen. I'm sorry, I'm not familiar--
    Senator Cortez Masto. With that?
    Ms. Christiansen. No.
    Senator Cortez Masto. Okay.
    Ms. Christiansen. I can speak to a partnership that we, the 
Greater Wildland Fire Community, we've entered into with the 
Center for Disease Control and they're really helping us study 
both the fuel type from prescribed fire and wildfire and the 
time of year and to not only show that the quantity of smoke is 
different, as Senator Cantwell expressed in this report, but 
the type of the particulate matter, looking that closely at the 
particulate matter between wildfire smoke and prescribed fire 
smoke.
    We're really pleased that we have such a solid partnership 
with the Center for Disease Control because that's going to 
really accelerate us having the public conversation about how 
we handle smoke.
    Senator Cortez Masto. Thank you.
    I know the Department I was talking about is in Interior.
    Mr. Rupert, do you have any comments?
    Mr. Rupert. Yeah, so I'm not familiar with this and I'm 
happy to look more specifically into and give you a good 
response to that particular question about that office.
    I would just say that as we look, sort of, where we're at 
now and where, sort of, where we want to go in the future to 
start to deal with this issue, there's lots of interaction 
between the wildland fire community and air managers, EPA, and 
others. Essentially, I think, the shared vision here is that 
we're much better off under a prescribed-fire scenario where we 
control the circumstances and the volumes and the character of 
the smoke that's in the air as opposed to catastrophic, 
uncontrolled wildfire where we have no control whatsoever. 
We're stuck with it.
    Senator Cortez Masto. I agree.
    Thank you. Thank you both.
    The Chairman [presiding]. Thank you, Senator.
    Let me ask about the vegetation management provisions that 
we included in the Omnibus. Chief, can you give me, kind of, a 
status report on the implementation of these provisions that we 
included?
    I think we recognize that when we are thinking about the 
physical integrity of transmission and distribution 
infrastructure, this is key to protecting the security and 
reliability of our energy grid when we are talking about a 
wildfire. So give me a quick update here.
    Ms. Christiansen. Certainly, Senator.
    We have moved swiftly. We have done the full analysis of 
these provisions, and we've given really specific direction to 
our regions.
    As you know, they'll be submitting to us their plans by the 
end of this week on the utility right-of-way. Vegetation 
management, that's more opportunistic. I've asked every one of 
our regional foresters to describe how they're prepared to meet 
the response times that those utilities will require so that we 
can be timely in allowing the vegetation management projects to 
move forward. It's basically direction to our region to be 
ready and show us how they are prioritizing when those requests 
come in from the utilities and to work with them in advance to 
know what that workload is going to look like.
    The Chairman. Okay.
    Mr. Rupert, are the folks at BLM and Forest Service 
coordinating on this implementation effort?
    Mr. Rupert. Excuse me, thank you.
    There's been very active, ongoing engagement and 
coordination looking at coming up with consistent approaches to 
this. BLM is well into the process and is very close to 
releasing an IM, informational memorandum, which is a policy 
essentially reinforcing side boards, timelines, and 
expectations for implementation.
    The Chairman. Okay, good, good.
    There has been discussion already with regards to the 
unmanned aerial systems. How does DOI and the Office of 
Wildland Fire coordinate with Forest Service in terms of the 
drone program?
    Do you both operate them separately and is there some level 
of communication or coordination that goes on with these 
assets?
    Mr. Rupert. Well, sure. Maybe I'll start.
    In Interior, UAS drone operations aren't strictly wildfire. 
In fact, the majority of the drone missions that are flown in 
Interior are actually resource missions--surveys and 
inspections.
    In the case of wildfire though, we have a fleet. I think 
we're approaching 500 DOI-owned drones, and we have several 
hundred certified operators. Many of those operators are 
qualified then to operate on a wildland fire incident.
    As you know, the coordination that occurs with that 
wildfire focus is really similar in terms of establishing those 
interoperable standards that allow us to go into these 
incidents, that we know we have certified, qualified operators 
that are capable of piloting these drones in that environment 
to support the incident response.
    In a lot of ways it's very similar to how we coordinate all 
other assets in the wildland fire world. I think that's been 
one of the really successful parts of this drone implementation 
is that we really have taken that wildland fire community-wide 
sort of implementation standard, interoperable approach.
    The Chairman. Do we have any sense as to the savings that 
we might be able to obtain by using drones? Obviously, from a 
safety perspective, I mean, it is clear there. But in terms of 
using the traditional aircraft versus drones for some of the 
more traditional wildfire tasks. Do we have a sense as to what 
that cost savings might be?
    Ms. Christiansen. We don't have specific dollar figures, 
Senator, but like any buildup investment, we imagine what we 
can get to.
    As Mr. Rupert says in both a resource end of things, you 
know, the forest health detections that we do across this 
nation, when we can get that to having drones instead of the 
aerial surveys, then it's in the magnitudes of tens that the 
potential savings is, but we're in that innovative stage to how 
far we are going to be able to go replacing people with the 
cameras. We imagine it can be great, and we're going to 
incrementally work ourselves there.
    The Chairman. Let me ask a little bit about that. I was up 
in South Central Alaska and I was struck by the amount of 
spruce bark beetle kill that we are seeing up beyond the Mat-Su 
Valley, up toward Denali. It is an area that I had not really 
noticed the kill.
    Obviously, the Kenai Peninsula was decimated some years 
back and, unfortunately, we are seeing some evidence of that 
again and this is done through the aerial surveillance, but we 
are seeing evidence that the beetle may be back.
    It is my understanding the spruce bark beetle has already 
decimated over 1.3 million acres, more than 30 million spruce 
trees on the Kenai Peninsula alone. Again we pay very, very 
close attention to this because of the potential for increased 
fire threat, particularly down on the Kenai Peninsula right 
now.
    But it is not just the Kenai Peninsula. I was looking at my 
clips this morning and just in this morning's newspapers around 
the state we had a fire down in Gustavus, of all places. This 
is in the Tongass National Forest.
    Ms. Christiansen. Yes.
    The Chairman. One up in Talkeetna this morning, a small 
one, and then the first big fire up in Interior, off of Rosie 
Creek Road which is just up from the area where I grew up.
    It is fire season for us. I know that we are projected to 
have a normal year, but for us, normal is still over, 
oftentimes, one million acres. So this is something that we 
watch with great, great interest.
    What are the agencies doing to work together, again, not 
just within DOI and Forest Service, but working with the state, 
as we are dealing with some of the beetle kill issues and, 
again, this resurgence that we are seeing whether it is down on 
the Kenai or whether it is now moving more into South Central 
and into Interior?
    Ms. Christiansen. Senator, the recent aerial detection 
survey in 2017, there were 27 million acres flown in Alaska and 
there were over 840,000 acres that was recorded forest damage.
    You're correct, it's in South Central. There was over 
400,000 in this recent survey, largely in the Susitna Valley, 
in that area, as you described.
    It's across all lands, so we are working collectively. We 
have put together a Spruce Beetle Working Group, research 
group, in Alaska with the Division of Forestry and the 
Alaskan----
    The Chairman. Now, as I understand that that task force was 
focused on the Kenai Peninsula. Are you expanding this to a 
broader area in the Susitna region or the Mat-Su region as 
well?
    Ms. Christiansen. Yes.
    The Chairman. Okay.
    Ms. Christiansen. That's my understanding.
    And you know, there's a spruce beetle website stood up and 
we've also awarded special technology development grant to 
develop Landsat methods for having a broader look, both 
spatially and temporally at the detecting both the past and the 
present disturbances across Alaska. This will help us monitor 
the insects and disease activity on a larger scale, kind of, 
let us get behind this.
    We are working in Southeast Alaska, the largest area, where 
there are smaller pockets of spruce beetle activity, but the 
largest area is in Glacier Bay National Park. So our Forest 
Health Protection Program is collaborating with park staff 
about monitoring and traps this summer. We are clearly working 
across boundaries in the park as well.
    The Chairman. Well, as we all know, and it is not just in 
Alaska, where we have the beetle kill, it has been raised by 
other colleagues.
    So, again, making sure that these forest management tools 
that we provided you in the Omnibus to really do more when it 
comes to, whether it is the thinning, the prescribed burning, 
just every effort that we can do to reduce that fire risk, but 
also really working to address the management reforms that we 
all believe are critically important, as I know you do as well.
    We have one more vote and thus the absence of other 
colleagues here this morning, but if folks do have questions 
for the record, we will make sure that they come to your 
attention and would ask that you respond to their concerns as 
well.
    I do want to ask one more question and this relates to the 
Roadless Rule there in the Tongass. You know my position on it. 
I have always said I did not think that the Roadless Rule made 
any sense in a place where it is an area that is just made up 
of islands, 32 island communities.
    As we are looking for access within the Tongass, the big 
focus has been, of course, on the limitations that are provided 
by the Roadless Rule. You have a petition from the State of 
Alaska that asks for that exemption from the Roadless in the 
Tongass.
    Last time you were here we had a conversation about this 
and the Forest Service plans. Can you give me an update on the 
status of the State's petition and when the Forest Service 
might act on that petition?
    Ms. Christiansen. Thank you, Senator, absolutely, I can.
    Senator or excuse me, Secretary Perdue and Governor Walker 
just spoke on Friday, this past Friday, June 1st. They agreed 
to pursue a state-specific Roadless Rule to address the 
concerns as swiftly as possible on the Tongass National Forest 
and the access for timber, energy development, and many other 
forms of access on the Tongass. We are working closely with the 
state to align the resources, to get started immediately. We, 
the Forest Service, have identified funding and actually the 
resources in people and staffing and expertise to get started. 
We're in close contact with the state, and we'll be glad to 
keep you up to date.
    The Chairman. I appreciate that and perhaps what we need, 
might, want to do is schedule a meeting with yourself and the 
Secretary, if he is available, to further discuss this matter.
    I am cognizant that with the state petition (my good 
friend, Senator Risch from Idaho, was one that led that in his 
state and he has made clear to me that this is not an easy 
process), it is not a quick process, and it is not a cheap 
process. Making sure that there is a good understanding as to 
what this process is, basically moving forward with the State's 
petition, is how that is clearly outlined. It is certainly my 
hope that whichever, whatever, that process looks like it does 
not result in anything that is less than a full exemption from 
the Roadless for the Tongass.
    I would like to be able to speak with both you and the 
Secretary about that petition--but again, understanding how we 
can move forward in a way that does acknowledge the reality of 
the situation that we face within the Tongass. I look forward 
to more discussion on that.
    With that, I think, as I am looking through this, maybe 
this question was asked when I was out on the vote, but have 
you provided the status on the aerial firefighting use and 
effectiveness study? That was back in 2012. It is my 
understanding that the agency launched this use and 
effectiveness study five years ago. It is also my understanding 
that we really have not seen any information that has been 
released from that work which does not make any sense. That is 
not acceptable if we have requested it and five years later we 
still have not seen that release. Again, I do not know if you 
have addressed this already and if you have, I apologize, but 
can you just tell me where we are with that?
    Ms. Christiansen. Certainly, Senator. And no, I have not 
addressed it yet.
    The Chairman. Okay.
    Ms. Christiansen. As you know, that's a study to look over 
a variety of different fire situations, the use and 
effectiveness. Are we using it appropriately?
    The Chairman. Right.
    Ms. Christiansen. And how effective is retardant?
    This is a major investment. Retardant is a critical tool, 
but we want to know if we're using it correctly. And like all 
studies, I get frustrated as well, but it takes the amount of 
time and the variety of fires and different types of fires to 
have a reasonable study. And it was always intended to be five 
years of field data. So they are collecting that now into a 
report, and we will see a draft report in the coming months 
with the final report in 2019.
    The Chairman. Final report--well, I understand what you are 
saying about how we want it to be comprehensive, but I think we 
also recognize that we, the Congress, have worked to provide 
you with some resources and some tools that you have been 
asking for, for a long time.
    Ms. Christiansen. Right.
    The Chairman. But you acknowledge in your own statement 
that this is not a blank check to us.
    Ms. Christiansen. Right.
    The Chairman. And so, making sure that we are doing right 
by these reforms, we are doing right by these additional 
dollars that are coming your way, these additional resources--
we want to be guided by things that are going to make some 
sense.
    One of the things I hear is that when it comes to aircraft 
to achieve certain suppression objectives that it is a somewhat 
random thing. It is like well, what do we have over here? You 
pull this in. That is not cost efficient. That is not using our 
money smartly. I would hope that you are trying to get this 
into alignment.
    Ms. Christiansen. Yes.
    The Chairman. That we are not going to just blow through 
the resources that we have this year because we have it and 
next year we promise to do it smarter because we are going to 
have the results of the study. If you have information that can 
help point you in a better direction now, I would hope that you 
are setting yourself up to do just that.
    Ms. Christiansen. Yes, Senator, we are.
    We actually implemented last year--the longer study is 
ongoing and we look forward to those results and getting 
preliminarily briefed here soon. But we also have the 
technology now with our scientists to, within a 12-hour 
turnaround, have real-time maps to our incident management 
teams where they can see the effectiveness of the prior 
burning, the window of response and was that effective, did we 
just burn through the retardant drops that we thought were 
going to be effective. So we're doing some real-time learning 
as well as the longer-term, a view study. With both of those we 
are making adjustments, and we will have more information and 
be glad to work with you on that.
    The Chairman. Well, I would appreciate that. I think you 
heard similar concerns from both Senator Cantwell and Senator 
Wyden on this.
    Ms. Christiansen. Yes.
    The Chairman. Again, we see that yes, these are 
extraordinarily important assets. We want you to have those 
aviation assets, but we also want to know that we are being 
smart with all of this. And thus, the request for the study 
back in 2012 and thus, the frustration. Actually, if my math is 
correct, if we really did put this in place in 2012, we are 
beyond our five years now.
    So----
    Ms. Christiansen. Yeah, the first field season, I believe, 
was in 2013.
    The Chairman. Okay, alright.
    Ms. Christiansen. Yeah.
    The Chairman. Hurry it up.
    [Laughter.]
    Ms. Christiansen. Okay, we will.
    The Chairman. Alright.
    I have no further questions at this point in time, but 
again, if colleagues have submissions you will see them.
    I know it is not a policy but maybe we just pray for rain 
this summer and we also pray for the safety of the men and 
women who are out there on the front lines. I think we all know 
that this is very dangerous, and we have lost far too many as 
they have been out there on the front lines. Hopefully it will 
be a safe season.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:36 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                               


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
